No. 19-1291

In the Supreme Court of the United States
CHARLES HAMNER,
Petitioner,
v.
DANNY BURLS, CONNIE JENKINS, MAURICE WILLIAMS,
STEVE OUTLAW, and MARVIN EVANS,
Respondents.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Eighth Circuit
NON-OPPOSITION TO FORMER CORRECTIONS DIRECTORS’
MOTION FOR LEAVE TO FILE AMICUS CURIAE BRIEF
Respondents Danny Burls, Connie Jenkins, Maurice Williams, Steve Outlaw,
and Marvin Evans do not oppose the motion of proposed amici former directors of
state correctional systems to file an amicus curiae brief in this matter.
This matter was recently reassigned to the Solicitor General Unit of the Arkansas Attorney General’s Office. Although prior counsel for Respondents did not
consent to the filing of amici’s brief, current counsel has reviewed the brief and consents to its filing.

Respectfully submitted,
LESLIE RUTLEDGE
Arkansas Attorney General
/s/ Nicholas J. Bronni
NICHOLAS J. BRONNI
Arkansas Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
ASHER STEINBERG
Assistant Solicitor General

May 20, 2020

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@arkansasag.gov

2

